TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Requiring Personal Identification Numbers
                    for Electronically Filed Returns Could
                       Improve Tax Administration and
                                Reduce Costs



                                      September 20, 2006

                              Reference Number: 2006-30-160




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   DEPARTMENT OF THE TREASURY
                                                          WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                September 20, 2006


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Requiring Personal Identification Numbers for
                                Electronically Filed Returns Could Improve Tax Administration and
                                Reduce Costs (Audit # 200630001)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) actions
 regarding missing U.S. Individual Income Tax Declarations for an IRS e-file Return (Form 8453)
 and our determination whether the missing Forms have a negative effect on tax administration.

 Impact on the Taxpayer
 The IRS requires individual taxpayers who file online and electronic return originators (ERO) to
 file Forms 8453 when taxpayers do not sign their tax returns with a Personal Identification
 Number (PIN).1 If Forms 8453 were eliminated for electronic tax returns and PINs were
 substituted, all electronic returns would have signatures and taxpayers would have less contact
 with the IRS. In addition, the IRS could save over $1.8 million in processing costs as well as the
 cost of issuing reminder letters.




 1
  Individual taxpayers file a U.S. Individual Income Tax Return (Form 1040). EROs file tax returns electronically
 for their clients, generally more than one taxpayer. Individual taxpayers filing online actually file a U.S. Individual
 Income Tax Declaration for an IRS e-file Online Return (Form 8453-OL).
                  Requin'ng Personal Identification Numbers for Electronically Filed
              <
                    Returns Could Improve Tax Administration and Reduce Costs




Synopsis
Form 8453 contains the taxpayer's physical signature, which attests to the return's validity. The
Internal Revenue Code2 and IRS tax publications clearly state that a return is not considered
authentic or complete until a signature is received.
According to IRS records, over 2.26 million Tax Year (TY) 2004 individual income tax returns
filed electronically were missing signatures, an increase of 563,000 (33 percent) over TY 2003.3
We believe several factors contributed to this problem.
    Electronic tax returns are processed and refunds are issued regardless of whether
    Forms 8453 are received.
    Follow-up (reminder) letters requesting missing Forms 8453 were issued erratically over the
    past 2 years.
    Signature documents for many taxpayers were missing for more than 1 year, indicating the
    IRS' actions did not cause a change in the taxpayers' behavior.
    When EROs consistently do not provide required Forms 8453, they can be suspended from
    participating in the electronic filing program with the IRS. However, the IRS has issued
    suspension letters to only two EROs since 2003.




    According to the IRS, a Form 8453 is needed as a transmittal document for 11 paper tax
    Forms associated with electronically filed returns.' However, IRS management has not
    addressed the possibility of creating a simple transmittal document for some of these paper
    Forms while still requiring a PIN for the associated Form 1040. In addition, because the IRS
    did not receive 17 percent of the required Forms 8453 for Tax Year 2004, its effectiveness as
    a transmittal document is questionable.
    The IRS' goal, as mandated by Congress, is to have 80 percent of all tax returns filed
    electronically. Despite its success in increasing the use of PINS, the IRS is hesitant to



 Internal Revenue Code Section 6061 (1954 Amended 1998).
  TY 2004 was the latest year for which statistics were available for missing Forms 8453. The final figures for
TY 2005 were not available at the time of our review.
' See Appendix V.
                                                                                                                  2
                 Requiring Personal Identification Numbers for Electronically Filed
                   Returns Could Improve Tax Administration and Reduce Costs



    eliminate the option of filing Form 8453 with an electronic tax return and requiring use of a
    PIN, for fear this may discourage electronic filing.
Because of these issues, the IRS is not following the tax law and its own regulations that require
a signature for each tax return and is spending more to process tax returns. Also, taxpayers are
not treated equitably. The IRS routinely issues refunds to taxpayers who do not file their
required Forms 8453. However, because of its own regulations, the IRS suspends processing of
paper tax returns with missing signatures. No refunds are issued on these returns until the
missing signatures are provided.

Recommendation
We recommended that the Commissioner, Wage and Investment Division, eliminate the use of
Form 8453 as a signature document and mandate the use of a PIN, wherever possible, as the only
acceptable signature for electronic returns for individual taxpayers filing through EROs and
online.

Response
The Commissioner, Wage and Investment Division, disagreed with our recommendation
because, in his opinion, mandating PINs could result in a larger volume of paper returns and
because the Modernized e-File program5 should eventually cause Forms 8453 to become
obsolete. Accordingly, management also disagreed with our outcome measure.
However, the Commissioner stated the IRS will improve the current Form 8453 process. For
example, the IRS is exploring earlier processing of Forms 8453, more efficient letter sequencing
to request missing Forms 8453, and using the Tax Return Data Base for timelier letter mail-outs.
The IRS will also send taxpayers and EROs multiple signature compliance letters.
Management’s complete response to the draft report is included as Appendix VIII.

Office of Audit Comment
The IRS provided no empirical data to support its contention that mandating PINs could result in
larger volumes of paper returns. With the advent of automated teller machines, debit cards, and
online banking, the use of PINs has become commonplace. It seems unlikely that taxpayers that
have experienced the advantages of filing electronically would return to filing paper returns
because they were required to use a PIN.


5
  The modernized program will allow for new methods of electronic signatures and the attachment of PDF files for
third-party signatures.
                                                                                                                   3
              Requiring Personal Identification Numbers for Electronically Filed
                Returns Could Improve Tax Administration and Reduce Costs



In our opinion, the steps discussed by the IRS to improve the current Form 8453 process may
help but will not eliminate the problems associated with requiring Forms 8453, including burden
to taxpayers, particularly when the IRS loses the forms, and the inequitable treatment of
taxpayers. Nor will the steps reduce the increased costs associated with processing Forms 8453.
However, because the IRS has identified steps for increasing the use of PINs and because the
Modernized e-File program should begin phasing out the need for Forms 8453 in 2009, the IRS’
interim corrective action is acceptable.
Copies of the report are also being sent to IRS managers affected by the report’s
recommendations. Please contact me at (202) 622-6510 if you have questions or Daniel R.
Devlin, Assistant Inspector General for Audit (Small Business and Corporate Programs), at
202-622-8500.




                                                                                              4
                    Requiring Personal Identification Numbers for Electronically Filed
                      Returns Could Improve Tax Administration and Reduce Costs




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Mandating the Use of Personal Identification Numbers
          Would Improve Tax Administration.............................................................Page 3
                    Recommendation 1:..........................................................Page 7


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 8
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
          Appendix IV – Outcome Measure ................................................................Page 12
          Appendix V – Tax Forms Required to Be Filed With Form 8453
          or Form 8453-OL..........................................................................................Page 14
          Appendix VI – U.S. Individual Income Tax Declaration for an
          IRS e-file Return (Form 8453)......................................................................Page 15
          Appendix VII – IRS e-file Signature Authorization (Form 8879)................Page 16
          Appendix VIII – Management’s Response to the Draft Report ...................Page 17
         Requiring Personal Identification Numbers for Electronically Filed
           Returns Could Improve Tax Administration and Reduce Costs




                          Abbreviations

AGI                   Adjusted Gross Income
e-file                Electronic File
ERO                   Electronic Return Originator
I.R.C.                Internal Revenue Code
IRS                   Internal Revenue Service
PIN                   Personal Identification Number
SSN                   Social Security Number
TY                    Tax Year
U.S.                  United States
                 Requiring Personal Identification Numbers for Electronically Filed
                   Returns Could Improve Tax Administration and Reduce Costs




                                             Background

The Internal Revenue Service (IRS) introduced electronic filing in 1986 and accepted
25,000 refund-only returns in that year. This enabled individual taxpayers to file their tax returns
electronically, but it did not eliminate the need for a signature on the return.1 The IRS needed to
devise a way for individual taxpayers to supply their signatures for electronically filed tax
returns. As a result, it created the U.S. Individual Income Tax Declaration for an IRS e-file
Return (Form 8453).2 Besides containing the taxpayer’s physical signature attesting to the
return’s validity, the Form 8453 also served as a transmittal for the taxpayer’s Wage and Tax
Statement(s) (Form W-2). Unfortunately, this also meant the process was not entirely electronic.
In 1999, the IRS eliminated the requirement that taxpayers file Forms W-2 with their
Forms 8453. A Personal Identification Number (PIN) was tested in 1999 and introduced for use
in the 2001 Filing Season.3 Today, the Self-Select PIN method can be used by individual
taxpayers who file electronically using tax preparation software or through an electronic return
originator (ERO).4 A taxpayer using a Self-Select PIN to sign his or her income tax return uses
the original adjusted gross income (AGI)5 from the prior year tax return and his or her date of
birth to verify their identity. The PIN is created by the taxpayer at the time of filing.
A taxpayer is not required to provide the AGI and date of birth if he or she uses the Practitioner
PIN method. This method can be used if the taxpayer files through an ERO, who verifies the
taxpayer’s identity. The taxpayer signs an IRS e-file Signature Authorization (Form 8879)6
authorizing the ERO to input the taxpayer’s PIN as the signature on the electronic return. The
Form 8879 is maintained by the ERO and is not filed with the IRS.
A taxpayer who files online without signing the tax return with a PIN must complete and sign a
U.S. Individual Income Tax Declaration for an IRS e-file Online Return (Form 8453-OL) and
mail it to the IRS. A taxpayer who files electronically using an ERO, but does not sign the tax
return with a PIN, must sign the Form 8453 and the ERO must mail it to the IRS. Figure 1
illustrates the history of Form 8453.




1
  Individual taxpayers file a U.S. Individual Income Tax Return (Form 1040).
2
  See Appendix VI.
3
  The filing season is the period from January through mid-April when most individual income tax returns are filed.
4
  EROs file tax returns electronically for their clients, generally more than one taxpayer.
5
  AGI is a line on a taxpayer’s tax return that represents total income reduced by certain deductions known as
“adjustments” but before itemized deductions or standard deductions and personal exemptions are taken.
6
  See Appendix VII.
                                                                                                            Page 1
                 Requiring Personal Identification Numbers for Electronically Filed
                   Returns Could Improve Tax Administration and Reduce Costs



                                     Figure 1: Form 8453 History




Source: Treasury Inspector General for Tax Administration analysis of IRS tax forms and instructions.

The IRS has had significant success at increasing electronic filing. As of June 2006, the IRS
had received over 71 million electronically filed individual income tax returns for Tax
Year (TY) 2005, and over 57 million (80 percent) of these were filed with a PIN. However, that
meant almost 14 million taxpayers still needed to file paper Forms 8453 with the IRS. Some of
those 14 million taxpayers are required to file Form 8453 rather than use a PIN. Among them
are:
    •   Primary taxpayers under age 16 who have never filed, if they file online using tax
        preparation software without an ERO.
    •   Secondary taxpayers (spouse) under age 16 who did not file in the immediate prior year,
        if they file online using tax preparation software without an ERO.
    •   Taxpayers who are required to file any of the (paper) tax Forms listed in Appendix V.
        These paper Forms must be filed with a Form 8453.
This review was performed at the IRS Andover Campus7 in Andover, Massachusetts, and the
National Headquarters in Washington, D.C., in the Offices of the Chief Counsel and Electronic
Tax Administration during the period December 2005 through April 2006. The audit was
conducted in accordance with Government Auditing Standards. Detailed information on our
audit objectives, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.



7
 The campuses are the data processing arms of the IRS. The campuses process paper and electronic submissions,
correct errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                        Page 2
                 Requiring Personal Identification Numbers for Electronically Filed
                   Returns Could Improve Tax Administration and Reduce Costs




                                      Results of Review

Mandating the Use of Personal Identification Numbers Would Improve
Tax Administration
The Internal Revenue Code (I.R.C.) 8 and IRS tax publications clearly state that a tax return is not
considered authentic or complete until a signature is received. When signing a Form 8453, a
taxpayer attests “Under penalties of perjury, I declare that I have examined a copy of my
electronic individual income tax return and accompanying schedules and statements for the tax
year ending . . . and to the best of my knowledge and belief, it is true, correct, and complete.”
The signature holds the taxpayer accountable for what is reported on the tax return.
As discussed earlier, taxpayers filing electronically must either use a PIN or file Form 8453 to
satisfy this requirement for signature. Although processing tax returns signed by PINs is much
less expensive than processing Forms 8453, the IRS continues to use Form 8453. However, the
IRS is not receiving the required Form 8453 for many electronic returns.
According to IRS records, over 2.26 million TY 2004 electronic individual income tax returns
were missing signatures, an increase of 563,000 (33 percent) over TY 2003. These missing
Forms included more than 1.5 million missing Forms 8453-OL and 700,000 missing Forms
8453. We evaluated the tax accounts of a statistically valid sample of 271 individual taxpayers
who filed electronic returns in TY 2004 for which a Form 8453 was required, but the IRS had no
record of the Form, and found missing signature documents were not isolated to 1 year for many
of these taxpayers. We determined 205 (76 percent) of these taxpayers had filed electronically
for TY 2005 as of the date of our review. Of these, 112 (55 percent) again did not use a PIN and
were therefore required to submit a Form 8453. IRS records indicated Forms 8453 were not
filed by 89 (79 percent) of these taxpayers.
We believe several factors contributed to this problem.
    •   Electronic tax returns are processed and refunds are issued regardless of whether
        Forms 8453 are received.
        In our sample of 271 taxpayers with missing Forms 8453, 244 taxpayers received
        refunds.9 Forms 8453 mailed by taxpayers or EROs are generally processed by the IRS
        well after the associated tax returns and any applicable refunds have been processed.


8
  I.R.C Section (§) 6061 (1954 Amended 1998).
9
  For our purposes, taxpayers with overpayments applied to other liabilities were considered to have received
refunds.
                                                                                                            Page 3
                   Requiring Personal ldentiflcation Numbers for Electronically Filed
                     Returns Could /mprove Tax Administration and Reduce Costs



           Further, the Form 8453 information is processed to a different computer system from that
           of the electronic tax return.
           The IRS is also paying interest on refunds resulting from amendments to electronic tax
           returns that were filed with no record of a Form 8453. Sometimes after a taxpayer files a
           Form 1040, he or she files an Amended U.S. Individual Income Tax Return (Form
           1040X) to make changes to the tax originally reported. When those changes result in a
           refund, the IRS may have to pay interest to the taxpayer, which is generally paid from the
           April 15 due date of the original Form 1040 to the date on which the Form 1040X is
           received.I0 Interest should be paid only if the original return is complete, including a
           signature. When there is no record of the required Form 8453 having been received,
           interest should not be paid from the April 15 due date. However, we identified
           approximately 16,000 instances in which this occurred for TY 2004. The IRS paid
           interest totaling approximately $179,000 on these returns.
           Appropriate follow-up letters may not have been sent to taxpayers or their EROs
           requesting the missing Forms 8453.
           The IRS has developed a series of reminder letters to help obtain missing Forms 8453.
           However, these letters have been sent out erratically over the past 2 years. In fact, no
           letters were sent to individual taxpayers for TY 2004. When EROs consistently do not
           provide required Forms 8453, they can be suspended from participating in the electronic
           filing program with the IRS. However, we were informed by the IRS that only two EROs
           have received suspension letters since 2003.
           The IRS may not have adequate controls over Forms 8453.
           In some cases, taxpayers or their ERO may never have filed the required Fc
           other cases, the IRS may have lost the Forms 8453 after receiving
                                                                        . .1m
                                                                            .eht




           The IRS does not want to discourage electronic filing.
           The IRS' goal, as mandated by Congress, is to have 80 percent of all tax returns filed
           electronically. Despite its success in increasing the use of PINS, the IRS is hesitant to
           eliminate the option of filing Form 8453 and requiring use of a PIN because it may
           discourage electronic filing. For TY 2004,82 percent of returns filed electronically were
           signed using a PIN. As mentioned earlier, to obtain a PIN, taxpayers identify themselves
           using their prior year AGI and date of birth, or they get the PIN through an ERO.


'O   1.R.C g 661 1 (Amended 2004).
                                                                                              Page 4
                                            Requiring Personal Identification Numbers for Electronically Filed
                                              Returns Could Improve Tax Administration and Reduce Costs



                       Taxpayers that do not have their AGI readily available can obtain it by calling the IRS
                       toll-free telephone number. Our auditors tested this process by telephoning the number
                       and were able to obtain the necessary information without difficulty. Figure 2 illustrates
                       the increase in electronic filing and use of PINs.

                                                       Figure 2: Electronic Filing and PIN Use,
                                                                   FYs 2002 – 2004

                                                          Electronic Returns, PINs Used, Form 8453 Required

                                       70




                                       60




                                       50
     Volume of Returns (In Millions)




                                       40
                                                                                                              Electronic Returns
                                                                                                              PIN Used
                                                                                                              Form 8453 Required
                                       30




                                       20




                                       10




                                       0
                                                2002                      2003                        2004
                                                                         Tax Year


    Source: Statistics provided by the IRS.

•                      The IRS claims that Form 8453 is needed as a transmittal document for 11 paper tax
                       Forms associated with electronic returns.
                       Appendix V contains a list of the 11 Forms the IRS states must be submitted on paper,
                       even though a return is filed electronically, and must be accompanied by Form 8453.
                       The Form 8453 serves as a transmittal document. However, we determined 3 of these
                       11 Forms contain taxpayer identifying information, tax year, and a signature line.
                       Therefore, the Form 8453 appears to be an unnecessary redundancy for these Forms.
                       Seven of the other eight forms contain taxpayer identifying information and tax year but
                       no signature line. IRS management has not addressed the possibility of creating a simple
                       transmittal document for these paper Forms and still requiring a PIN for the associated

                                                                                                                               Page 5
                 Requiring Personal Identification Numbers for Electronically Filed
                   Returns Could Improve Tax Administration and Reduce Costs



         electronic Form 1040. In addition, because the IRS did not receive 17 percent of required
         Forms 8453 for all tax forms, its effectiveness as a transmittal document is questionable.
Because of these issues, the IRS is not following the tax law and its own regulations requiring a
signature for each tax return and is spending more to process tax returns. Also, taxpayers are not
treated equitably. The IRS routinely issues refunds to taxpayers who do not file their required
Forms 8453 or Forms 8453-OL. However, because of its own regulations, the IRS suspends
processing of paper tax returns with missing signatures. No refunds are issued on these returns
until the missing signatures are provided. In addition, as illustrated by Figure 3, processing a
return with Form 8453 costs nearly twice what processing the same return with a PIN costs.
                              Figure 3: Figure 8453 Processing Costs

                                     Filing Method                         Cost to Process

                     File on paper                                               $2.65

                     File electronically with Form 8453                          $1.03

                     File electronically with PIN                                 $.59
                    Source: Cost figures provided by the IRS representing cost per return processed.

By mandating the use of PINs, the IRS could save over $1.8 million in Form 8453 processing
costs.11
Recently, IRS Electronic Tax Administration function management identified 11 areas in which
the use of PINs could be increased. Their proposals included ideas to reduce the number of
missing Forms 8453. Although we believe all the ideas have merit, we specifically endorse
those with objectives to eliminate the use of Form 8453. They include the following:
     •   Enable the taxpayer to create a PIN signature through the IRS web site (IRS.gov).
     •   Create a telephone line for the sole purpose of providing the information a taxpayer
         would need to create a PIN.
     •   Mandate the use of PINs on returns prepared on IRS computers.
     •   Mandate the use of PINs by consortiums.12
     •   Mandate the use of PINs by EROs.


11
  See Appendix IV for details.
12
  Consortiums are members of the Free Filing Alliance that provides free e-file services to taxpayers that meet a
certain criteria.
                                                                                                             Page 6
              Requiring Personal Identification Numbers for Electronically Filed
                Returns Could Improve Tax Administration and Reduce Costs



Recommendation
Recommendation 1: The Commissioner, Wage and Investment Division, should eliminate
the use of Form 8453 as a signature document and mandate the use of a PIN, whenever possible,
as the only acceptable signature for individual taxpayers filing through EROs and online. To
accomplish this, the Commissioner will need to create a revised transmittal form for some of the
11 paper tax Forms that currently must be filed with the IRS and explore alternate methods for
the other taxpayers discussed in the background of this report that are now required to use Form
8453 to file electronically instead of using a PIN.
Management’s Response: The Commissioner, Wage and Investment Division, disagreed
with our recommendation (and associated outcome measure) to eliminate the use of Form 8453
as a signature document and mandate the use of PINs, whenever possible, for the following
reasons:
− Mandating PINs could result in a larger volume of paper returns, costing more to process
  than the savings from not processing the Form 8453, and
− The 1040 Modernized e-File program will be implemented over a 3-year period starting in
  2009. The modernized platform will allow for new methods of electronic signatures and the
  attachment of PDF files for third-party signatures. With full implementation, the Form 8453
  should become obsolete.
However, the Commissioner, Wage and Investment Division, stated the IRS would continue to
improve the current Form 8453 process. For example, the IRS is exploring earlier processing of
Forms 8453, more efficient letter sequencing to request missing Forms 8453, and using the Tax
Return Data Base for timelier letter mail-outs. The IRS will also send taxpayers and EROs
multiple signature compliance letters.
Office of Audit Comment: The IRS provided no empirical data to support its contention that
mandating PINs could result in larger volumes of paper returns. With the advent of automated
teller machines, debit cards, online banking, etc., the use of PINs has become commonplace. It
seems unlikely that taxpayers who have experienced the advantages of filing electronically
would return to filing paper returns because they were required to use a PIN.
In our opinion, the steps discussed by the IRS to improve the current Form 8453 process may
help but will not eliminate the problems associated with requiring Forms 8453, including burden
to taxpayers, particularly when the IRS loses the forms, and the inequitable treatment of
taxpayers. Nor will the steps reduce the increased costs associated with processing Forms 8453.
However, because the IRS has identified steps for increasing the use of PINs and because the
Modernized e-File program should begin phasing out the need for Forms 8453 in 2009, the IRS’
interim corrective action is acceptable.



                                                                                          Page 7
                Requiring Personal Identification Numbers for Electronically Filed
                  Returns Could Improve Tax Administration and Reduce Costs



                                                                                              Appendix I

        Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to evaluate the IRS’ actions regarding missing
U.S. Individual Income Tax Declarations for an IRS e-file Return (Form 8453) and to determine
whether the missing Forms have a negative effect on tax administration. To accomplish these
objectives, we:
I.      Evaluated the effectiveness and legal rationale for requiring a paper signature document
        with certain electronically filed returns and determined the feasibility of implementing
        viable alternatives to filing a paper Form 8453.
        A. Met with IRS management and determined under what conditions Form 8453 must
           accompany an electronically filed return, the legal requirements for paper and
           electronic signatures, and what other types of taxpayer authorization (e.g., electronic
           signatures) have been reviewed and investigated by the IRS as alternative forms of
           taxpayer identification.
        B. Obtained documentation that authorizes the IRS to send a refund to a taxpayer whose
           return is considered “incomplete” until a complete and signed Form 8453 is received,
           and obtained documentation that justifies the IRS’ adherence to procedures that
           continue to require paper signature forms in lieu of other available alternative
           signature documentation.
II.     Evaluated the processing of Forms 8453 and actions the IRS is taking to retrieve missing
        Forms 8453.
        A. Visited the IRS Andover Campus1 in Andover, Massachusetts, which receives
           electronically filed returns, and determined how Forms 8453 are received, the
           functions that receive them, the functions responsible for processing the Forms, and
           whether the returns are coded and entered into IRS computers by IRS employees, and
           where and how the returns are transported after processing.
        B. Met with local management to determine who is responsible for issuing a notice to
           the taxpayer and the tax practitioner to request Form 8453 and who is responsible for
           ensuring Forms 8453 are received.
        C. Met with responsible officials to determine what actions are taken to secure
           Forms 8453.

1
 The campuses are the data processing arms of the IRS. The campuses process paper and electronic submissions,
correct errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                        Page 8
                 Requiring Personal Identification Numbers for Electronically Filed
                   Returns Could Improve Tax Administration and Reduce Costs



III.    Evaluated the database obtained from the IRS of approximately 2.2 million SSNs that
        represented missing Forms 8453 for TY 2004 to determine the characteristics of those
        taxpayers who do not file the Forms 8453 to determine what effect the missing Forms are
        having on tax administration.
        A. To test the validity of the data, we used a judgmental sample of 50 SSNs of the
           approximately 2.2 million SSNs that represented missing Forms 8453 for TY 2004
           and checked the IRS computer database to determine whether the Forms 8453 were
           actually filed.
        B. Developed a computer program using the missing Forms 8453 SSNs for TY 2004 to
           determine whether any accounts were being worked by the IRS Criminal
           Investigation, Examination, or Collection functions and whether any liens or levies
           were on the accounts. We determined the percentage of missing Forms 8453 that
           have IRS actions on their accounts. We took a statistically valid sample of 271 SSNs
           using a precision rate of +5 percent, an estimated error rate of 50 percent, and a
           confidence level of 90 percent. The population was 2,259,736 SSNs.
        C. Compared the SSNs for TYs 2003 and 2004 to determine whether the taxpayers were
           not filing Forms 8453 for multiple years.
        D. Determined the difficulties taxpayers faced in obtaining their prior year’s AGI for use
           in creating a PIN to sign their tax returns. Two auditors personally telephoned the
           IRS toll-free telephone number in May 2006 to determine whether the AGI can be
           obtained by telephone or must be mailed to the taxpayer’s address of record. 2




2
 AGI is a line on a taxpayer’s tax return that represents total income reduced by certain deductions known as
“adjustments” but before itemized deductions or standard deductions and personal exemptions are taken.
                                                                                                            Page 9
              Requiring Personal Identification Numbers for Electronically Filed
                Returns Could Improve Tax Administration and Reduce Costs



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Kyle Andersen, Director
Jeff Anderson, Audit Manager
Dolores Castoro, Audit Manager
Brian Kelly, Audit Manager
John Chiappino, Lead Auditor
Margaret Filippelli, Senior Auditor
Carol Gerkens, Senior Auditor
James Adkisson, Information Technology Specialist




                                                                                        Page 10
             Requiring Personal Identification Numbers for Electronically Filed
               Returns Could Improve Tax Administration and Reduce Costs



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Chief Information Officer OS:CIO
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Electronic Tax Administration S:W:ETA
Director, Office of Strategy and Finance OS:A:F
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Program/Process Assistant Coordinator, Wage and Investment Division W:HR
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Audit Liaisons:
      Commissioner, Small Business/Self-Employed Division SE:S
      Commissioner, Wage and Investment Division SE:W
      Director, Electronic Tax Administration SE:W:ETA




                                                                              Page 11
                 Requiring Personal Identification Numbers for Electronically Filed
                   Returns Could Improve Tax Administration and Reduce Costs



                                                                                              Appendix IV

                                     Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure
    •   Funds Put to Better Use – Potential: $1.83 million (see page 3)

Methodology Used to Measure the Reported Benefit:
We took the following steps to estimate this outcome:
    1) We estimated the volume of U.S. Individual Income Tax Declarations for an IRS e-file
       Return (Form 8453) that would be filed in Calendar Year 2007. We began with the
       actual number of Forms 8453 filed during 2003 – 2006.1 We then calculated the average
       change in the number of Forms 8453 filed for that period, which was a reduction of
       895,678 Forms. (The number of Forms 8453 actually increased by 72,272 from 2005 to
       2006. However, to ensure our estimate was conservative, we assumed the number of
       required Forms would again decrease from 2006 to 2007). We applied that average
       reduction to the number of Forms 8453 filed in 2006, which gave us a projected number
       of Forms 8453 for 2007 of 12,507,720.
                 13,403,398 – 895,678 = 12,507,720.
    2) We estimated the number of Forms 8453 that would still have to be processed if PINs
       were mandated. The IRS advised us that 11 different tax Forms2 cannot be eliminated
       from paper filing; therefore, these Forms would still have to be processed, as would the
       Form 8453 that serves as a transmittal document. Volumes were available for only 5 of
       the 11 Forms. However, as illustrated by the table below, the volumes associated with
       these five Forms seemed reasonably representative of what they would be for the other
       Forms (some high volumes, some low volumes).




1
  Although Calendar Year 2006 was not over at the time of our review, most electronic returns would have already
been filed at the time of our review.
2
  See Appendix V.
                                                                                                        Page 12
           Requiring Personal Identification Numbers for Electronically Filed
             Returns Could Improve Tax Administration and Reduce Costs



               Form        Volume                         Source
             3468              11,754          IRS.gov figures for TY 2002
             4136             349,860          IRS line usage study for TY 2003
             5713               3,421          IRS line usage study for TY 2003
             8283           5,933,934          IRS line usage study for TY 2003
             8885              17,834          IRS line usage study for TY 2003
             Total          6,316,803

   Therefore, we projected these volumes over the unknown volumes of the other six Forms
   that require Form 8453 as a transmittal (if filed with an electronic Form 1040).
           6,316,803 divided by 5/11 = 13,896,967.
   No break out was available for the Forms filed with paper Forms 1040 and those filed
   with electronic Forms 1040. Therefore, we used the percentage of Forms 1040 filed
   electronically in Filing Year 2006 to estimate the volumes of these Forms that would be
   associated with electronic returns and would require a Form 8453.
           13,896,967 x .54 = 7,504,362.
3) We calculated the potential volume of Forms 8453 that could be eliminated by mandating
   the use of PINs for all but those taxpayers filing 1 of the 11 required paper Forms.
           12,507,720 – 7,504,362 = 5,003,358.
4) We reduced this number by the 17 percent of all required Forms 8453 for all tax forms
   that never get filed.
           5,003,358 x .83 = 4,152,787.
5) We calculated the potential savings in processing costs. The cost of processing an
   electronic tax return with a Form 8453 is $1.03, while the cost of processing an electronic
   tax return with a PIN is $.59 – a savings of $.44 per return. We multiplied this figure by
   the potential volume of Forms 8453 that could be eliminated by mandating the use of
   PINs to arrive at the potential savings.
           4,152,787 x .44 = $1.83 million.




                                                                                      Page 13
               Requiring Personal Identification Numbers for Electronically Filed
                 Returns Could Improve Tax Administration and Reduce Costs



                                                                                   Appendix V

               Tax Forms Required to Be Filed With
                   Form 8453 or Form 8453-OL

Form 1098-C       Contributions of Motor Vehicles, Boats, and Airplanes
                  (or acceptable documentation/required donor documentation)
Form 3115         Application for Change in Accounting Method
Form 3468         Investment Credit
                  (if Historic Structure Certificate is required)
Form 4136         Credit for Federal Tax Paid on Fuels
                  (if certificate and/or reseller statement is required)
Form 5713         International Boycott Report
Form 8283         Noncash Charitable Contributions, Section A
                  (if statement(s) required)
                  Noncash Charitable Contributions, Section B
Form 8332         Release of Claim to Exemption for Child of Divorced or Separated
                  Parents
                  (or similar statement)
Form 8858         Information Return of U.S. Persons With Respect to Foreign Disregarded
                  Entities
Form 8864         Biodiesel and Renewable Diesel Fuels Credit
                  (if certification and/or reseller statement is required)
Form 8885         Health Coverage Tax Credit
Schedule D-1      Continuation Sheet for Schedule D (Form 1040)
                  (or acceptable substitute)
                  (if taxpayer elects not to include his or her transactions on the electronic Short
                  Term Capital Gain or Loss Record or Long Term Capital Gain or Loss
                  Record)




                                                                                           Page 14
      Requiring Personal Identification Numbers for Electronically Filed
        Returns Could Improve Tax Administration and Reduce Costs



                                                          Appendix VI

U.S. Individual Income Tax Declaration for an IRS
             e-file Return (Form 8453)




                                                                 Page 15
    Requiring Personal Identification Numbers for Electronically Filed
      Returns Could Improve Tax Administration and Reduce Costs



                                                        Appendix VII

IRS e-file Signature Authorization (Form 8879)




                                                               Page 16
   Requiring Personal Identification Numbers for Electronically Filed
     Returns Could Improve Tax Administration and Reduce Costs



                                                      Appendix VIII


Management’s Response to the Draft Report




                                                              Page 17
Requiring Personal Identification Numbers for Electronically Filed
  Returns Could Improve Tax Administration and Reduce Costs




                                                           Page 18
Requiring Personal Identification Numbers for Electronically Filed
  Returns Could Improve Tax Administration and Reduce Costs




                                                           Page 19
